mwe.com
Paul W. Hughes
Attorney at Law
phughes@mwe.com
+1 202 756 8981

July 21, 2020
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Shannon Deasey, et al. v. Daniella Slater, et al.
No. 19-1085

Dear Mr. Harris:
I represent respondents in the above-captioned case. The petition for a writ of certiorari
in this case was filed on March 2, 2020. The brief in opposition is currently due on July 29, 2020.
I respectfully request, under Rule 30.4 of the rules of this Court, an additional 30-day
extension of time to and including August 28, 2020, within which to file the brief in opposition.
Counsel for petitioners does not object to this further extension of time.
Thank you for your assistance.
Sincerely,

_______________________
Paul W. Hughes

cc: counsel for petitioners

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

